; 7 ?(:

/r%.

No.

r \\ f: A r
\\ i__,

& y “

Supreme Court, U.S.
FILED

JAN 0 5 LL
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

NOLAN C. TURNER III — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

NOLAN C. TURNER III
326827, ASH—1
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

QUESTIONS PRESENTED
This: was a capital first-degree murder case that ended with a
responsive verdict of guilty of second-degree murder which lead to the
following questions:
1.

Over Turner’s objection, trial counsel told the jury the offense
committed in this case was a general intent second degree
murder and not the charged offense of first degree murder.
Turner’s counsel told the jury the shooting only happened
because a gunfight started after the robbery occurred because
Turner, although he knew better, just wanted to get out. Did trial
counsel’s concession of guilt to second degree murder, over
Turner’s express objection, violate Turner’s right to maintain his
innocence?

2.

Before this Court rendered the decision in McCoy v. Louisiana,
Turner had unsuccessfully litigated a claim that his trial counsel
pled him guilty over his express objection. In denying the claim,
the trial court applied an incorrect standard. Is there a remedy
for cases that have become final prior to the announcement of
the McCoy rule?

11

LIST OF PARTIES
[]

All parties appear in the caption of the case on the cover page.

[X] All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:
Nolan C. Turner III

James E. Stewart Sr., District Attorney

326827, Ash—1

Attention: Appeals Division

Louisiana State Penitentiary

501 Texas Street Fifth Floor

Angola, LA 70712

Shreveport, LA 71101-5408

in

TABLE OF CONTENTS
PAGE NO.
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING AND STAYING THE WRIT

6
19

CONCLUSION
INDEX TO APPENDICES

Page

Appendix
A

Louisiana Supreme Court’s September 29, 2020, Ruling

1

B

Appellate Court’s December 5, 2019, Ruling

3

C

District Court’s Ruling (September 16, 2019)

5

D

Mr. David R. McClatchey’s Affidavit

9

E

Successive Application for Post-Conviction Relief

11

iv

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Florida v. Nixon, 543 U.S. 175, 125 S.Ct. 551 (2004)
McCoy v. Louisiana, 138 S.Ct. 1500 (2018)
Montgomery v. Louisiana,

U.S.___, 136 S.Ct. 718 (2016)

13
passim
11

State v. Cannon, 2018-1846 (11/20/18); 257 So.3d 182

6

State v. Horn, 2016-0559 (La. 9/7/18); 251 So.3d. 1069

passim

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984).
Teagne v. Lane, 489 U.S. 288, 109 S.Ct. 1060 (1989)
United States v. Cronic, 466 U.S. 648, 104 S.Ct. 2039 (1984)

7,17
11
7,17

Wainwright v. Sykes, 443 U.S. 72, 97 S.Ct. 2497 (1977)

16

Wiley v. Sowders, 647 F.2d 642 (6th Cir. 1981)

16

STATUTES AND RULES
La. C. Cr. P. art. 914

8,10

La. C. Cr. P. art. 922

8,10

La, C. Cr. P. art. 924

9

La. C. Cr. P. art. 930

9

La. C.Cr.P. art. 930.2

4,5,8,9,10

La. C. Cr. P. art. 930.4

4,8,10,12,13

v

4,6,8,10

La. C. Cr. P. art. 930.8
Rule 10 of the United States Supreme Court

vi

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
[]

For cases from federal courts:
The opinion of the United States court of appeals appears at
Appendix ___ to the petition and is
]
reported at
or,
has been designated for publication but is not yet reported;
or,
[]
unpublished.
The opinion of the United States district court appears at Appendix
B to the petition and is
]
reported at
or,
has been designated for publication but is not yet reported;
or.
[]
unpublished.

[x]

For cases from state courts:
The opinion of the highest state court to review the merits appears
at Appendix A to the petition and is
x] reported at 2020-00047 (La 9/29/201: 301 So.3d 1158; or,
has been designated for publication but is not yet reported;
[3
or,
[]
unpublished.

1

The opinion of the Louisiana Second Circuit Court of Appeal
appears at Appendix B to the petition and is
or,
]
reported at
has been designated for publication but is not yet reported;
or,
[x] is unpublished.
JURISDICTION
[]

For cases from federal courts:
The date on which the United States Court of Appeals decided my
case was____________ .
[]

No petition for rehearing was timely filed in my case.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

[x]

For cases from state courts:
The date on which the highest state court decided my case was
September 29. 2020.
A copy of that decision appears at Appendix A.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United Sates Constitution provides in
pertinent part;
“In all criminal prosecutions, the accused shall enjoy the right ... to
have the assistance of counsel for his defense.”
The Fourteenth Amendment to the United Sates Constitution provides
in pertinent part;
“No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal protection of the
laws.”

Article 1, § 13 of the Louisiana Constitution provides in pertinent
part:
“When any person has been arrested or detained in connection with
the investigation or commission of any offense, he shall be advised fully of
...his right to the assistance of counsel and, if indigent, his right to court
appointed counsel. In a criminal prosecution.....At each stage of the
proceedings, every person is entitled to assistance of counsel of his choice,
or appointed by the court if he is indigent and charged with an offense
punishable by imprisonment.”

3

STATEMENT OF THE CASE
Turner was charged, tried and convicted by a twelve-member jury for
first degree murder. Turner was not successful in his direct appeal, or
collateral attack of, his conviction and sentence in the state or federal courts.
On May 14, 2019, Turner filed a Successive Application for PostConviction Relief with Memorandum and Exhibits in Support (“SAPCR”)
under La. C, Cr. P. art. 930.8 (A)(2)’s exception clause. The State filed a
response to Tinner’s SAPCR alleging relief must be denied because his
SAPCR: (1) was filed more than two years after the judgment of conviction
in violation of La. C. Cr. P. art. 930.8; (2) did not qualify for any of the
exceptions listed in La. C. Cr. P. art. 930.8; (3) was repetitive in violation of
the entirety of Za, C. Cr. P. art. 930.4; (4) conclusory, speculative and selfserving in violation of La. C. Cr, P. art. 930.2; and (5) was lacking because
Turner failed to refer to the record to prove his allegation and did not
articulate what portions of the trial were unconstitutional and why. Turner
traversed the State’s answer to his SAPCR and refuted the unfounded
allegations. On September 16, 2019, the district court agreed with the State
and denied Turner’s SAPCR. Attachment C. After giving the district court
notice of his in tent to seek appellate review and requesting a return date,

4

Turner timely filed an application for supervisory writ of review in the
appellate court. On December 5, 2019, the appellate court, citing La. C. Cr.
P. art. 930.2, denied Turner’s writ application on the showing made.
Attachment B. After the appellate court’s denial, Turner timely filed an
application for a writ of certiorari to the Louisiana Supreme Court. On
September 29, 2020, the Louisiana Supreme Court denied Turner’s writ
application and said; “The application was not timely filed in the district
court, and applicant fails to carry his burden to show that an. exception
applies.” Attachment A. Thereafter, Turner sought federal habeas release in
the federal district court. On November 17, 2020, Magistrate Judge Hornsby
stayed Turner’s habeas petition, for a period of sixty days, and instructed
him to receive authorization from Court of Appeals for the district court to
consider his habeas petition; however, because this Court has not yet
declared the holding of McCoy v. Louisiana to be applied retroactively,
Turner is presenting this important question to the Court for consideration.
This instant petition for a writ of certiorari timely follows.

5

REASONS FOR GRANTING THE WRIT
Turner has raised a claim which, if proven, entitles him to relief. The
state courts have denied him relief and Turner now comes before the Court
to present his claim. In McCoy v, Louisiana, 584 U.S.

, 138 S.Ct. 1500,

200 L.Ed.2d 821 (2018) this Court held that the Sixth Amendment guarantees
a defendant the right to choose the objective of his or her defense and to
insist that counsel refrain from admitting guilt over the counsel's
experienced-based opinion because some decisions, like whether or not to
plead guilty, are for the client to make. See McCoy v. Louisiana, 138 S.Ct. at
1507, 1508-12. In State v. Horn, 2016-0559 (La. 9/7/18); 251 So.3d 1069,
the Louisiana Supreme Court echoed the sentiments of the McCoy Court and
went on to say that the holding in McCoy was “broadly written and focuses
on a defendant’s autonomy to choose the objective of his defense.” State v.
Horn, 251 So.3d at 1075. As a result of this new interpretation concerning
the Sixth Amendment’s right to the assistance of counsel, there is an
unprecedented area of law in need of judicial guidance. Cf. State v. Cannon,
2018-1846 (11/20/18); 257 So.3d 182. Also, contrary to the state courts
claim, La. C. Cr. P. art 930.8(A)(2) provided the necessary vehicle for
Turner to have his claim heard. The McCoy Court also said: “Because a
client’s autonomy, not counsel’s competence, is in issue, we do not apply
6

our ineffective-assistance-of-counsel jurisprudence, Strickland v. Washington,
466 U.S, 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), or United States v.
Cronic, 466 U.S. 648, 104 S.Ct. 2039, 80 L.Ed.2d 657 (1984) to [a] McCoy[]
claim.” McCoy v. United States, 138 S.Ct. at 1510-11; see also State v. Horn,
251 So.3d at 1077.
In addition to the new interpretation concerning the conceding of guilt
over a defendant’s express objection, Turner asked the state courts to consider
that: (1) he had told the trial judge he was being prosecuted in a case where
the State was seeking the death penalty; (2) the only evidence against him
was unreliable eyewitness testimony; (3) the suggestive and tainted
photographic lineup irreversibly poisoned the minds of the witnesses; (4) he
intended on pursuing an alibi defense to establish his actual innocence; and
(5) his trial counsel conceded guilt to second degree murder over his express
objection and defense. Instead of sustaining the State’s misplaced procedural
objections, the state courts had a legal duty to consider Turner’s claim on its
merit and grant relief.
Under Rule 10, the Louisiana courts have denied relief contrary to
important questions of federal law that has been settled by this Court and has
decided an important federal question in a way that conflicts with relevant
decisions of this Court as set forth below:
7

1.

The state courts misapplied Articles, 914, 922, 930.2, 930.4 and
930.8(A) of the Louisiana Code of Criminal Procedure to Turner’s
Second Application for Post-conviction Relief; and, in doing so,
erroneously denied Turner’s violation of autonomy claim contrary to
clearly established federal law.
The state officials tasked with defending Turner did not defend him.

Instead, the alleged defense team (Michael Vergis, David McClatchey and
Kurt Goins) conceded Turner’s guilt over his repeated and express protestations
of innocence. In an affidavit defending Mr. Vergis, Mr. McClatchey suggests
Turner is guilty of misconstruing Mr. Vergis’s closing argument. Mr.
McClatchey claims the first part of Mr. Vergis’s argument was “that the
offense itself [was] not even first degree murder but at best a second degree
murder.” Attachment D. If that does not qualify as a concession of guilt,
nothing does. It is also of interest that Mr. Goins notarized the affidavit. It is
now known that this kind of deliberate violence to the most basic element of
the adversarial system contravenes the Sixth Amendment’s guarantee of
autonomy in the conduct of one’s defense. See McCoy v. Louisiana, 138
S.Ct. 1500 (2018) and State v. Horn, 2016-0559 (La. 9/7/18); 251 So.3d
1069. It is also known that this kind of error is structural and entitles a
defendant to an automatic reversal. The question presented here is, what to
do with a conviction obtained in violation of a rule that became final prior

8

to the rule’s announcement—especially where the claim was unsuccessfully
litigated before this new rule was announced because the state courts applied
an incorrect standard.
A.

La. C. Cr. P. art 930,2 does not apply.
The state appellate court, citing La. C. Cr. P. art. 930.2, denied Turner’s

writ application on the showing made. Attachment C. Turner met his burden
of proof as set forth in TITLE XXXI-A—which governs properly filed
applications for post conviction relief. See La. C. Cr. P. art. 924 et seq. The
appellate court was tasked with reviewing the district court’s reasons for
denying Turner relief; however, the appellate court failed to address the
district court’s reasons for denying Turner’s SAPCR. In light of La. C. Cr. P.
art 930.2, the appellate court should have remanded the matter to the district
court with instructions to conduct an evidentiary hearing because Turner
presented sufficient evidence to support his factual claim. See La. C. Cr. P.
art. 930. And, Mr. McClatchey (not Mr. Vergis who actually conceded guilt)
claimed, in an affidavit he provided the State, that “Mr. Vergis did not concede
guilt and in fact argued that Mr. Turner was not guilty and innocent of this
offense.” Attachment D. The state courts have failed to consider what Mr.

9

Vergis actually said when he did, in fact, concede guilt to a specific intent
murder over Turner’s objection:
Now, the question is, we have someone who is now deceased, that
makes it murde?. I believe, in this case, it’s second degree murder,
not first... Yes, he should have known better, but you sure weren’t
trying to kill anyone. You were going to be shot or be shot [sic].
And that doesn’t justify it. It’s still wrong. It is still murder, but
it’s not first degree murder; it is clearly second degree murder.
It is general intent... Now that we have established that it’s a
second degree murder and what took place, let’s move on to some
of the evidence which has been used.
Record Below Appendix L, pp. 70-71.
The appellate and supreme court’s failure to, at least, remand for an
evidentiary hearing is clearly contrary to the holdings of McCoy and Horn,
supra. Especially where Turner, under La. C. Cr. P. art. 930.2, submitted
evidence sufficient to prove his trial counsel conceded guilt over his express
objection.
R.

La. C. Cr. P. art. 930.8 does not apply.
Instead of addressing Turner’s claim on its merit, the state courts

misapplied La. C. Cr. P. art’s 930.8, 914, 922 and 930.4 to his SAPCR. The
state courts failed to consider 930.8(A)(2)’s specific exception under which
Turner’s claim falls. In pertinent parts, La. C. Cr. P art. 930.8 (A)(2) provides:
No application for post-conviction relief ... shall be considered
if it is filed more than two years after the judgment of
10

conviction and sentence has become final ... unless any of the
following apply:
The claim asserted in the petition is based upon a final ruling of
an appellate court establishing a theretofore unknown
interpretation of constitutional law and petitioner establishes that
this interpretation is retroactively applicable to his case, and the
petition is filed within one year of the finality of such ruling.
The district court erroneously concluded that Turner’s SAPCR “was
not filed in a timely fashion, requiring this Court to dismiss his Application.”
Attachment C. The district court, went on to say Turner’s conviction and
sentence became final October 4, 2010. Attachment C. The district court’s
logic and legal conclusions are wrong and the appellate and supreme courts
should have addressed it. Turner’s conviction and sentence became final
June 24, 2004, ninety days after state supreme court declined discretionary
review following the affirmance of his conviction and sentence on direct
appeal. As for the McCoy rule, it should be considered a watershed rule
because it meets the twin criteria of being a structural error and an error that
causes a fundamental breakdown in the adversarial process. Cf. Teague v.
Lane, 489 U.S. at 310-11; Montgomery v. Louisiana, 136 S.Ct. at 728-29.
The district court also said Turner “had two years ... or until October
4, 2012 to file his Application for Post-Conviction Relief5 and since he “failed
to file his Application in a timely manner, it must be denied.” Attachment C.
11

In other words, the state courts have denied Turner relief because he should
have collaterally attacked his conviction and sentence concerning a violation
of client autonomy eight years before this Court announced the McCoy rule.
C.

La. C. Cr. P. art. 930.4 does not apply.
The state courts misapplied La. C. Cr. P. art. 930.4(D) to Turner’s

SAPCR. The state district court said:
Petitioner’s Application must be dismissed pursuant to Article
930.4 of the Louisiana Code of Criminal Procedure. Petitioner
has not raised any new arguments specifying why there was a
violation of Article 1, § 13 of the Louisiana Constitution and the
Sixth Amendment of the United States Constitution, but rather,
has alleged the same claim that was asserted in his first
Application for Post-Conviction Relief, filed on February 9,
2005. This Court, has already issued a ruling denying that first
Application for Post-Conviction Relief. As this Application
contains the exact same argument and fails to raise any new
claim suggesting that Petitioner’s trial counsel conceded his
guilt over his express objection, Article 930.4 of the Louisiana
Code of Criminal Procedure requires this Court to dismiss
Petitioner’s Application.
Attachment C (Emphasis in original).
Although the facts are the same, the claim presented in Turner’s
SAPCR is not the same as the one presented in his APCR. The APCR
contained an ineffective-assistance-of-counsel claim.. The claim presented in
his SAPCR is the violation of his right to insist his attorney not concede
guilt to any offense.
12

D.

There is a difference in the claim raised in Turner's SAPCR versus
the one raised in his original APCR.
The claim in Turner's original APCR was that his trial counsel was

ineffective for conceding Petitioner’s guilt in closing argument without his
consent. The issue complained of here is that Turner’s right to choose the
objective of his defense was violated when his counsel conceded guilt over
his express objection. In other words, the claim in the original APCR was an
ineffective-assistanee-of-counsel claim and the instant claim is not. See
McCoy v. Louisiana, 138 S.Ct. at 1510-11; State v. Horn, 251 So.3d at 1077.
Accordingly, La. C. Cr. P. art. 930.4(D) is not applicable because Turner’s
violation of autonomy claim is new and, in essence, different from his
previous ineffeetive-assistance-of-counsel claim.
E.

There is a difference between the rule announced in Florida v.
Nixon versus the rule announced in McCoy v. Louisiana.
The district court relied on Florida v. Nixon, 543 U.S. 175, 125 S.Ct.

551, 563, 160 L.Ed.2d 565 (2004) to deny Turner’s original ineffectiveassistance-of-counsel claim where his defense counsel was ineffective for
conceding guilt in closing argument without his consent. Turner was charged
with first degree murder and the prosecution was seeking the death penalty.
The district court reasoned that although “defense counsel argued that the

13

offense was a Second Degree Murder, but does not concede that Petitioner
was the person at the scene... .There is no indication that defense counsel
conceded to Petitioner's guilty [sic] to the crime, or to his guilt of a lesser
crime.” See Record Below. In fact, the McCoy Court explained the difference
between cases similar to Nixon’s versus those similar to McCoy’s:
We held that when counsel confers with the defendant and the
defendant remains silent, neither approving nor protesting
counsel’s proposed concession strategy, id., 181, 125 S.Ct. 551,
“[no] blanket rule demand[s] the defendant’s explicit consent” to
implementation of that strategy, id, at 192, 125 S.Ct. 551.
In the case now before us, in contrast to Nixon, the defendant
vociferously insisted that he did not engage in the charged
criminal acts and adamantly objected to any admission of guilt.
McCoy v. Louisiana, 138 S.Ct. at 1505.
Turner never acquiesced to his trial counsel’s concession strategy and
consistently maintained his innocence. In fact, Turner reminded the trial
judge that he was “being prosecuted in a case in which the State is asking
for the death penalty” and that he intended on pursuing “an alibi defense
therefore claiming [his] innocence.” In denying Turner’s original APCR, the
district court said counsel’s closing argument (“that the offense was a Second
Degree Murder”) did not amount to a concession of guilt over Turner’s
objection because counsel did “not concede that Petitioner was the person at
the scene.” The district court’s reasoning is flawed.
14

F.

Another reason the McCoy rule should apply retroactively to this
case.
Turner unsuccessfully litigated his ineffective-assistance-of-counsel

claim to this honorable Court before the new interpretation of the Sixth
Amendment, as found in McCoy v. Louisiana, was handed down. In McCoy,
the Court said the decision whether to plead guilty or not rests solely in the
discretion of a criminal defendant and not his attorney. The McCoy Court
specifically said:
[A] defendant has the right to insist that counsel refrain from
admitting guilt, even when counsel’s experienced-based view is
that confessing guilt offers the defendant the best chance to avoid
the death penalty. Guaranteeing a defendant the right “to have the
Assistance of counsel for his defence,” the Sixth Amendment so
demands. With individual liberty—and, in capital cases, life—at
stake, it is the defendant’s prerogative, not counsel’s, to decide
on the objective of his defense: to admit guilt in the hope of
gaining mercy at the sentencing stage, or to maintain his
innocence, leaving it to the State to prove his guilt beyond a
reasonable doubt.
McCoy v. Louisiana, 138 S.Ct. at 1505.
The Louisiana Supreme Court, after being reversed by this Court,
concluded that:
... there is no question that a criminal defendant’s decision
whether to concede guilt implicates fundamental constitutional
rights and the right to exercise that decision is protected under
the Sixth Amendment. Moreover, a violation of this Sixth
Amendment right is a structural error and not subject to
15

harmless error review. [Thus] ... [a] criminal defendant’s
express refusal to concede guilt is safeguarded by core
c onstitutional prote ctions.
State v, Horn, 251 So.3d at 1076, 1077.
G.

A criminal defendant's right to insist counsel refrain from
conceding guilt existed before the McCoy rule was announced.
Because a criminal defendant does not surrender complete control of

his defense to his counsel, Turner was deprived of his Sixth Amendment right
to have the assistance of counsel for his defense when Mr. Vergis conceded
guilt to second degree murder. McCoy v. Louisiana, 138 S.Ct. at 1506, 1508.
Mr. Vergis’s action violated the longstanding rule that “such basic decisions
as to whether to plead guilty, waive a jury, or testify in one’s own behalf are
ultimately for the accused to make.” Wainwright v. Sykes, 443 U.S. 72, 93 n.
1 (1977). The federal Sixth Circuit Court, of Appeals explained that “an
attorney may not admit his client’s guilt which is contrary to his client’s
earlier entered plea of ‘not guilty.’” Wiley v. Sawders, 647 F.2d 642, 649
(6th Cir. 1981). As of May 14, 2018, it was settled that the Sixth Amendment
grants an accused the right to make his own defense and when it (the Sixth
Amendment) “speaks of the ‘assistance’ of counsel, [that] assistant, however
expert, is still an assistant.” McCoy v. Louisiana, 138 S.Ct. at 1508.

16

Mr. Vergis, along with Mr. McClatchey and Mr. Goins, tried to convince
Turner to plead guilty to second degree murder. Turner refused. The record
of this case is clear, guilt was conceded over Turner’s objection and he exhausted
the issue all the way to this Court under Stricklandv. Washington, 466 U.S.
668, 104 S.Ct. 2052 (1984) and United States v. Cronic, 466 U.S. 648, 104
S.Ct. 2039 (1984). Again, this was before this issue was settled by the McCoy
rule. Contrary to law, Mr. Vergis changed Turner’s defense and conceded guilt
without Ms consent. Mr. Vergis argued second degree murder in opposition to
Turner’s adamant plea of not guilty.
In his closing statement, Mr. Vergis told the jury:
Now, the question is, we have someone who is now deceased, that
makes it murder. I believe, in this case, it’s second degree murder,
not first. And here’s why: In order to have first degree murder you
have to show the specific intent to kill. It was the outcome they
wanted. They went there with the intent to kill people. They wanted
to do this, but that’s not what happened. The robbery was taking
place, things were going fine and then a gunfight started and at
that point, there was no intent to kill, there was intent to get out.
That is general intent. Yes, he should have known better, but you
sure weren’t trying to kill anyone. You were going to be shot or be
shot [sic]. And that doesn’t justify it. It’s still wrong. It is still
murder, but it’s not first degree murder; it is clearly second degree
murder. It is general intent. Mr. McClatchey during his long voir
dire explained that, if you specifically intend to do this, it is going
to be specific intent. Now, if this was something going to be a
likely consequence of your actions, it is general intent. It wasn’t
intended. All right. Now that we have established that it’s a second

17

*

degree murder and what took place, let’s move on to the some of
the evidence which has been used.
Record below Appendix L, pp. 70-71.
Mr. Vergis’s concession was a violation of Turner’s right to insist on
his innocence and robbed him of his right to the effective-assistance-ofcounsel to aid him in presenting his defense. Counsel’s strategy of conceding
guilt, over Turner’s objection, to a lesser charge of second degree murder
during closing argument was not strategy but a violation of Turner’s right to
decide what his defense should be.
Contrary to clearly established law, as determined by this honorable
Court, Mr. Vergis, in concluding his argument, said: “We have established
that it a [sic] second degree murder and the State has to prove beyond a
reasonable doubt that Nolan Turner committed this act. Now, the question is,
if Nolan wasn’t there, then where was he?” Attachment L. Mr. Vergis’s
insinuation that Turner was not where he said he was further strengthened
the improper concession of guilt over Turner’s explicit objection.
Also, while it is insisted that a pro se litigant’s claims be presented, the
measure for that accounting does not include a willingness to hold pro se
litigants “to the same stringent and rigorous standards as are pleadings filed

18

%

V

by lawyers.” Register v. Thaler, 681 F.3d at 628 (internal quotation omitted).
Accordingly, Turner is entitled to habeas relief concerning this claim.
CONCLUSION
For the foregoing reasons Turner’s petition for a writ of certiorari
should be granted.
Respectfully submitted,
Tu.
Nolan C. Turner III
Date: January

. 2021

19

